TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Accuracy of Volunteer Tax Returns Is
                    Improving, but Procedures Are Often Not
                                    Followed



                                         August 29, 2007

                              Reference Number: 2007-40-137




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 29, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Accuracy of Volunteer Tax Returns Is Improving,
                              but Procedures Are Often Not Followed (Audit # 200740019)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including the accurate preparation of their income tax returns, when visiting Internal
 Revenue Service (IRS) Volunteer Program1 sites. This audit is a followup to prior Treasury
 Inspector General for Tax Administration reviews.2

 Impact on the Taxpayer
 The Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
 improving taxpayer service and facilitating participation in the tax system. Although accuracy
 rates have been increasing, volunteers continue to not follow procedures that assist in the
 accurate preparation of tax returns. To ensure the continued success of the Volunteer Program,
 the IRS must focus its oversight on holding volunteers accountable. Incorrectly prepared tax
 returns increase the risk of taxpayers receiving erroneous payments or not receiving credits to
 which they are entitled.




 1
   The IRS Volunteer Program includes the Volunteer Income Tax Assistance and Tax Counseling for the Elderly
 Programs. During this review, the Tax Counseling for the Elderly sites we visited were those sponsored by the
 American Association of Retired Persons.
 2
   See Appendix VIII for a list of these reports.
                    Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                       Are Often Not Followed




Synopsis
Our reviews over the last four filing seasons3 have determined accuracy rates for tax returns
prepared at Volunteer Program sites continue to increase.4 In addition, improvements have been
made to the oversight of the Volunteer Program. However, to ensure continued success in the
Volunteer Program, the IRS must focus its oversight on holding accountable those volunteers
who do not follow required procedures.
Of the 39 tax returns prepared for our auditors by
Volunteer Income Tax Assistance (VITA) and
Tax Counseling for the Elderly sites for the               Accuracy rates increased from
2007 Filing Season, 17 (44 percent) were prepared       0 percent in the 2004 Filing Season to
incorrectly. If 10 (59 percent) of these incorrectly    56 percent in the 2007 Filing Season.
prepared tax returns had been filed, the taxpayers
would not have received $2,803 in tax refunds to
which they were entitled. Alternatively, if the remaining 7 (41 percent) of the incorrectly
prepared tax returns had been filed, the IRS would have refunded $15,475 incorrectly.
Since the 2004 Filing Season, we have reported that volunteers are not following required
procedures designed to assist in the accurate preparation of tax returns. During the 2007 Filing
Season, volunteers again did not consistently use intake sheets, including the IRS Intake and
Interview Sheet (Form 13614). In addition, volunteers did not perform the required interview
that assists in the preparation of page two of the intake sheet. Further, Volunteer Program sites
either did not always have a quality review process or the quality review process did not always
include the required elements (e.g., use of a checklist, use of the intake sheet).
For each of the 17 tax returns incorrectly prepared, 1 or more requirements were not followed.
For example:
       •   For 12 returns (71 percent), the volunteers did not conduct interviews with the auditors.
       •   For 10 returns (59 percent), the intake sheet was not prepared completely.
       •   For 2 returns (12 percent), the volunteer used the intake sheet only to obtain the auditor’s
           name and address.
       •   For 14 returns (82 percent), the sites had either no quality review process (7 sites) or a
           quality review process that was not in compliance with requirements (7 sites), including
           volunteers not using the checklist or intake sheet.



3
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
    Prior audits included only community-based Volunteer Income Tax Assistance sites.
                                                                                                                        2
                     Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                        Are Often Not Followed



Although steps are being taken to protect taxpayer information, encryption software was not
included on all computers containing prior year electronically filed (e-filed) tax information.
Protecting taxpayer information includes using passwords on computers (to prevent unauthorized
access to the computers), using tax preparation software that encrypts5 current year e-filed tax
information, and notifying taxpayers whose information will be retained longer than the current
tax year. Two (33 percent) of the 6 sites we visited that retained prior year e-filed tax
information did not have encryption software loaded on the 2 computers to protect the prior year
e-filed tax information. These two computers were provided by the partner organizations, not the
IRS.
Partner organizations and their volunteers play a significant role in the IRS’ tax return
preparation program. The IRS continues to move away from providing tax preparation
assistance at its local walk-in offices (Taxpayer Assistance Centers) and is relying more on the
Volunteer Program to provide the service. This presents significant challenges to the IRS. The
strengths of the Volunteer Program lie with the partner organizations and their volunteers. The
IRS has shown a commitment to holding them accountable for following the direction,
guidelines, and required processes that have been put in place. This commitment to holding
volunteers accountable should be at the forefront to ensure Program success.

Recommendations
We recommended the Commissioner, Wage and Investment Division, (1) require all Volunteer
Program sites to use the IRS-developed Form 13614; (2) provide training to site coordinators,
focusing on the specific responsibilities for ensuring volunteer compliance with established
requirements; (3) strengthen the policy on actions to be taken when a site is not in compliance
with requirements; and (4) ensure taxpayers receive required notification if prior year tax
information is maintained and encryption software is loaded on all computers on which prior
year e-filed tax information is retained.

Response
Management agreed with Recommendations 2 and 3 but disagreed with Recommendations 1 and
4. For Fiscal Year 2008, the IRS will develop a consistent plan and process for volunteer site
coordinator training and will review, revise, and strengthen policies to address the consequences
for noncompliant sites.
Management did not agree with Recommendation 1 requiring use of the IRS-developed
Form 13614. Management noted they will continue to require the use of an intake and interview
process and the Quality Assurance Staff will ensure partner organization compliance with partner

5
    Encryption software protects the confidentiality of data stored on a computer.
                                                                                                   3
               Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                  Are Often Not Followed



organization-developed intake sheets. For Recommendation 4, management stated the electronic
tax preparation software provided in Fiscal Year 2008 will encrypt all current and prior year
e-filed data; however, requirements for taxpayer notification are sufficiently addressed in Privacy
and Confidentiality-A Public Trust (Publication 4299). Management’s complete response to the
draft report is included as Appendix IX.

Office of Audit Comment
IRS management disagreed with Recommendation 1 requiring all Volunteer Program sites to use
the IRS-developed Form 13614 with the option of the site including additional locally developed
information. We have repeatedly reported that sites are not including all required questions on
their intake sheets. The IRS allows a site to create its own intake sheet, which must include
those questions it requires. However, required questions continue to not be included. In
addition, in response to our last report, the IRS had developed a process to ensure intake sheets
contained all required questions. This process failed to ensure partner organization compliance;
we determined 38 percent of the intake sheets reviewed did not include required questions.
Concerning Recommendation 4, while management stated they disagreed with the
recommendation, their planned actions together with Publication 4299 address the intent of the
recommendation. We did not take exception to the adequacy of Publication 4299. We reported
concerns that the Publication is not always being provided to taxpayers. However, management
responded that they would continue to stress that partner organizations obtain permission from
taxpayers for any data retained beyond December 31 of each year.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                     Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                        Are Often Not Followed




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Accuracy Rates Continue to Increase; However, Quality Site
          Requirements Are Not Being Followed........................................................Page 5
                    Recommendation 1:........................................................Page 10

                    Recommendations 2 and 3: ..............................................Page 11

          Steps Are Taken to Protect Taxpayer Information at
          Volunteer Program Sites ...............................................................................Page 11
                    Recommendation 4:........................................................Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – General Characteristics of Tax Year 2005 Tax Returns
          Prepared by the Volunteer Program..............................................................Page 18
          Appendix V – List of Cities and States Visited to Have Tax Returns
          Prepared ........................................................................................................Page 21
          Appendix VI – Results of Tax Returns Incorrectly Prepared at
          Volunteer Program Sites ...............................................................................Page 22
          Appendix VII – Accuracy of Eligibility Determinations..............................Page 23
          Appendix VIII – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Income Tax Assistance Program ...............Page 24
          Appendix IX – Management’s Response to the Draft Report ......................Page 25
              Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                 Are Often Not Followed




                               Abbreviations

AARP                    American Association of Retired Persons
e-file; e-filed         Electronic Filing; Electronically Filed
IRS                     Internal Revenue Service
MQSR                    Minimum Quality Site Requirement
SPEC                    Stakeholder Partnerships, Education, and Communication
VITA                    Volunteer Income Tax Assistance
VRPP-QIP                Volunteer Return Preparation Program-Quality Improvement
                        Process
                  Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                     Are Often Not Followed




                                            Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program
originated in 1969 due to enactment of the Tax Reform Act of 19691 and an increased emphasis
on taxpayer education programs. Emphasis has focused continually on expanding the
VITA Program through increased recruitment of social service, nonprofit, corporate, financial,
educational, and government organizations; involvement of the military on a national level; and
expansion of assistance provided to the limited-English-proficient community.
The Tax Counseling for the Elderly Program provides free tax help to people age 60 and older.
The Revenue Act of 19782 authorized the IRS to enter into agreements with private or
nongovernmental, public, nonprofit agencies and organizations to provide training and technical
assistance to volunteers who provide free tax counseling and assistance to elderly individuals in
the preparation of their Federal income tax returns.
The law authorizes an appropriation of special            Accurately prepared tax returns
funds, in the form of grants, to provide tax               establish credibility in and the
assistance to persons age 60 or older. The IRS          integrity of the Volunteer Program.
receives the funds as a line item in the budget
appropriation. The total funds are distributed to
the sponsors3 for their expenses.
The IRS Volunteer Program includes VITA sites operated in partnership with the military and
with various community-based organizations,4 as well as sites operated by the Tax Counseling
for the Elderly Program and the American Association of Retired Persons (AARP). This audit
included an assessment of tax returns prepared at community-based VITA sites and Tax
Counseling for the Elderly sites sponsored by the AARP. During the 2006 Filing Season,5 these
sites were involved in the preparation of 1,735,2316 tax returns. Figure 1 provides a breakdown
of the Volunteer Program and the volumes of tax returns prepared during the 2006 Filing Season.




1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  Pub. L. No. 95-600, 92 Stat. 2810.
3
  A sponsor would be similar to the American Association of Retired Persons.
4
  Some community-based VITA sites are located in buildings occupied by one or more IRS offices.
5
  The 2006 Filing Season relates to the processing of Tax Year 2005 tax returns. The filing season is the period
from January through mid-April when most individual income tax returns are filed.
6
  Total of 676,651 completed at community-based VITA sites and 1,058,580 completed at AARP-sponsored sites.
                                                                                                          Page 1
                 Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                    Are Often Not Followed



                       Figure 1: Tax Year 2005 Tax Returns Prepared
                                 by the Volunteer Program

                                                              Volume of Tax
                    Volunteer Program                        Returns Prepared           Percentage
       VITA                                                        645,117               30.88%
       Military VITA                                               295,583               14.15%
       Colocated VITA*                                               31,534               1.51%
       Tax Counseling for the Elderly (Non-AARP)                     39,287               1.88%
       Tax Counseling for the Elderly (AARP)                     1,058,580               50.66%
       Other                                                         19,299               0.92%
       Totals:                                                   2,089,400             100.00%
     Source: Treasury Inspector General for Tax Administration analysis of data retrieved from the IRS
     management information system containing Tax Year 2005 filing information.
     * = Community-based VITA sites that are located in buildings occupied by one or more IRS offices.

The Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
improving taxpayer service and facilitating participation in the tax system. It provides no-cost
Federal tax return preparation and electronic filing (e-filing) directed toward underserved
segments of individual taxpayers, including low- to moderate-income, elderly, disabled and
limited-English-proficient taxpayers. These taxpayers frequently are involved in complex family
situations that make it difficult to correctly understand and apply the tax law.
The IRS Stakeholder Partnerships, Education, and Communication (SPEC) function is
responsible for providing oversight of the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s business objectives include
increasing access to tax preparation services for low-income taxpayers, increasing e-filing, and
enhancing tax return accuracy.

Tax scenarios used by auditors reflected characteristics of taxpayers who seek
assistance from the Volunteer Program
To ensure the 2 tax scenarios used in this review reflected the characteristics of taxpayers who
seek assistance from the Volunteer Program, we developed the scenarios based on tax filing
characteristics of the 1,735,231 individuals that used community-based VITA sites and AARP
sites to have their Tax Year 2005 tax returns prepared. These taxpayers had average earnings of
$17,872 (community-based VITA sites) and $23,469 (AARP-sponsored sites). Appendix IV
provides additional key characteristics of these individuals.


                                                                                                         Page 2
               Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                  Are Often Not Followed



Further, we designed the scenarios to include tax law topics that assessed the volunteers’ use of
the tools the SPEC function had created to ensure accurate tax returns are prepared. The two
scenarios included tax topics related to five of the six credits taxpayers most often claimed on the
Tax Year 2005 returns prepared by community-based VITA and AARP sites. The dollar amount
of these 5 credits represented more than 49 percent (approximately $779 million) of the more
than 1.5 billion in refunds shown on the tax returns for these taxpayers. Taxpayers whose tax
returns include 1 or more of the 5 credits in our scenarios accounted for 779,122 (45 percent)
of the 1,735,231 tax returns prepared, based on our analysis of all Tax Year 2005
volunteer-prepared tax returns. The two scenarios developed for this review were:
Scenario 1 – The taxpayer was divorced and lived with his or her 8-year-old child. The taxpayer
had the same job working as a clerk throughout 2006. Wages reported on the Wage and Tax
Statement (Form W-2) totaled $26,542. The taxpayer was paid biweekly and contributed to a
401(k) plan. The taxpayer received a statement of Interest Income (Form 1099-INT) totaling
$56.14. The taxpayer received $325 a month for child support. The taxpayer had dependent
care expenses totaling $1,112.
An accurately prepared tax return would result in the taxpayer receiving a refund of $2,327. The
tax return preparer would have correctly determined the taxpayer’s filing status was Head of
Household and the dependency exemption could be claimed. Additionally, the taxpayer
qualified for an Earned Income Tax Credit of $867, a Child Tax Credit of $910, and an
Additional Child Tax Credit of $90. The taxpayer would also qualify for a Child and Dependent
Care Credit of $322, a Retirement Savings Contribution Credit of $94, and a Telephone Excise
Tax Refund of $40.
Scenario 2 – The taxpayer was single, had never been married, and lived with his or her sister.
The taxpayer had 2 children, ages 6 and 8, that lived with the taxpayer in the home of the
taxpayer’s sister during school vacations, including the months of June, July, and August
(summer). The children lived with the other parent during the school year. The taxpayer worked
a part-time evening job as a clerk and was paid $14,364. The taxpayer’s sister earned $48,000 in
2006. The taxpayer attended college part time, and the cost was paid for by the taxpayer’s sister.
An accurately prepared tax return would result in the taxpayer receiving a refund of $31. The
preparer would have correctly determined the taxpayer’s filing status was Single. Additionally,
because the taxpayer did not provide more than one-half of the support for the children, they
could not be claimed as dependents by the taxpayer for Child Tax Credit purposes. The Earned
Income Tax Credit would not be available to the taxpayer because earned income exceeded the
maximum allowable amount and because the children did not live with the taxpayer for more
than one-half of the year. The taxpayer would qualify for a Telephone Excise Tax Refund of
$30.
This review was performed at the IRS Customer Assistance, Relationships, and Education
function in the Wage and Investment Division Headquarters in Atlanta, Georgia, during
the period December 2006 through May 2007. Additionally, from February through April 2007,
                                                                                             Page 3
                 Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                    Are Often Not Followed



Treasury Inspector General for Tax Administration auditors performed 39 anonymous visits
(called shopping) and had 39 tax returns7 prepared at judgmentally selected Volunteer Program
sites located in 13 States. Appendix V provides a list of the 13 States and the specific cities
where the sites were located. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




7
 Of the 39 prepared tax returns, 13 were prepared at AARP-sponsored sites and 26 were prepared at
community-based VITA sites.
                                                                                                    Page 4
                    Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                       Are Often Not Followed




                                        Results of Review

Accuracy Rates Continue to Increase; However, Quality Site
Requirements Are Not Being Followed
Accuracy rates for tax returns prepared at Volunteer Program sites have continued to increase
over the last four filing seasons.8 Figure 2 shows that rates have increased from 0 percent
completed correctly in the 2004 Filing Season to 56 percent completed correctly in the
2007 Filing Season.
                           Figure 2: Overall Tax Return Accuracy Rates
                                 for the 2004-2007 Filing Seasons




          Source: Tax returns prepared for our auditors by volunteers for the 2004-2007 Filing Seasons.

The SPEC function has made improvements in its oversight of the Volunteer Program.
SPEC function management noted that the participation of Volunteer Program partner
organizations in the development and implementation of the quality program has been a key
factor in the consistent improvement of quality in the Volunteer Program over the last 4 years.
Partner organizations have continued to show an increasing commitment to improving the
quality of tax returns prepared at volunteer sites. However, to ensure the continued success of
the Program, the IRS must focus oversight on holding volunteers accountable when they do not
follow required procedures.



8
    Prior audits included only community-based VITA sites.
                                                                                                          Page 5
                  Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                     Are Often Not Followed



Since the 2004 Filing Season, we have reported that VITA site volunteers are not following
required procedures designed to assist in the accurate preparation of tax returns. During the
2007 Filing Season, volunteers again did not consistently use intake sheets, including the IRS
Intake and Interview Sheet (Form 13614), and perform the required interview that assists in the
preparation of the intake sheet. Further, Volunteer Program sites either did not always have a
quality review process or did not have a quality review process that always included the required
elements (e.g., use of a checklist, use of the intake sheet).
Of the 39 tax returns we had prepared for Filing Season 2007, 17 (44 percent) were prepared
incorrectly (56 percent accuracy rate).9 If 10 (59 percent) of these incorrectly prepared tax
returns had been filed, the taxpayers would not have received $2,803 in tax refunds to which they
were entitled. Specific credits not received included the Child Tax Credit, Additional Child Tax
Credit, Child and Dependent Care Credit, Earned Income Tax Credit, and Retirement Savings
Contribution Credit. Alternatively, if the remaining 7 (41 percent) of the incorrectly prepared tax
returns had been filed, the IRS would have refunded $15,475 incorrectly. Overstated refunds
resulted from taxpayers incorrectly receiving the Child Tax Credit and Additional Child Tax
Credit, dependency exemption, Child and Dependent Care Credit, and/or Earned Income Tax
Credit.10 Figure 3 shows a 4-year trend analysis of tax law accuracy at Volunteer Program sites
for the tax law topics included in our two scenarios.




9
  In comparison, as of April 19, 2007, the 39 tax returns prepared during shopping visits conducted by
SPEC function personnel had an overall accuracy rate of 64 percent.
10
   Appendix VI presents details of these results. Appendix VII presents results by tax scenario.



                                                                                                         Page 6
                  Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                     Are Often Not Followed



                  Figure 3: Comparison of Tax Law Accuracy Rates for the
                               2004-2007 Filing Seasons11




               Source: Tax returns prepared for our auditors by volunteers during the 2004-2007 Filing Seasons.

The SPEC function has improved its oversight of the Volunteer Program
Accuracy rates have improved with the development and continued refinement of the Volunteer
                           Return Preparation Program-Quality Improvement Process
                           (VRPP-QIP), which has established procedures and controls to
                           ensure a taxpayer’s tax return is accurate based on the supporting
                           documents provided by the taxpayer, the interview with the
                           taxpayer, and the intake and interview sheet.
                             Enhancements to the Volunteer Program for 2007 Filing Season
                             include the development of nine Minimum Quality Site
Requirements (MQSR). The procedures are not new to the Volunteer Program; however, the
MQSR made many of the prior procedures requirements. These Requirements are designed to
ensure consistent operation of Volunteer Program sites and to provide taxpayers with the
confidence that they are receiving accurate tax return preparation and quality service.
The IRS continues its commitment to providing top-quality service to all taxpayers who visit
Volunteer Program sites, especially low- to moderate-income, elderly, disabled, and
limited-English-proficient taxpayers. The IRS initiated a Project in October 2006, to validate
whether the VRPP-QIP is a clear, prescribed process the SPEC function can use to train its



11
  Only tax law topics included in both follow-up reviews and this review are included in this comparison
(see Appendix VII for a complete list of tax topics addressed in this review).

                                                                                                           Page 7
               Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                  Are Often Not Followed



volunteers, identify opportunities for improvement, and implement any necessary changes. The
Project team expects to release its report to the IRS management in June 2007.
Partner organizations and their volunteers play a significant role in the IRS’ tax return
preparation program. The IRS continues to move away from providing tax preparation
                                       assistance at its local walk-in offices (Taxpayer Assistance
      Oversight should shift from      Centers) and is relying more on the Volunteer Program
       evaluating the process to       and its partner organizations to provide the service. This
      holding accountable those        presents significant challenges to the IRS and the
    volunteers who do not comply       SPEC function. The strengths of the Volunteer Program
           with the process.
                                       lie with the partner organizations and their volunteers.
                                       The SPEC function has shown a commitment to
holding them accountable for following the direction, guidelines, and required processes that
have been put in place. However, this commitment to holding volunteers accountable should be
at the forefront to ensure Volunteer Program success.

Volunteers continue to not follow procedures that assist in the accurate
preparation of tax returns
For each of the 17 tax returns prepared incorrectly, 1 or more elements of the MQSR were not
followed. For example:
   •   For 12 returns (71 percent), the volunteers did not conduct interviews with the auditors.
   •   For 10 returns (59 percent), the intake sheet was not prepared completely.
   •   For 2 returns (12 percent), the volunteer used the intake sheet only to obtain the auditor’s
       name and address.
   •   For 14 returns (82 percent), the sites had either no quality review process (7 sites) or a
       quality review process that was not in compliance with SPEC function requirements
       (7 sites), including volunteers not using the checklist or the intake sheet.
The MQSR includes the following:
   •   All volunteers must use an intake and interview process, including completion of an
       intake and interview sheet. This includes (1) an interview with the taxpayer, (2) use of
       Form 13614 or a partner organization-developed intake sheet with the same questions,
       (3) confirmation of the taxpayer’s responses on the Form 13614 (or similar form), and
       (4) review of supporting documentation.
   •   A quality review process must be in place and functioning. This includes volunteer
       quality reviewers using the intake and interview sheet, taxpayer-provided documentation,



                                                                                             Page 8
                  Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                     Are Often Not Followed



        and the completed tax return as part of the quality review process and using a quality
        review checklist.12
When a Volunteer Program site is not in compliance with a particular MQSR, the SPEC
function’s policy is to work with the site and assist it with becoming compliant as soon as
possible. Any remedy offered should provide the assistance and support necessary to bring the
site into compliance with the MQSR. This may include discussions, counseling, and/or
mentoring assistance with the site within a reasonable
period. Withdrawing support from a site should be the
last resort.13                                                   Since the 2004 Filing Season,
                                                                              we have reported that
Since the 2004 Filing Season, we have reported that            volunteers do not use all tools
volunteers do not use all tools designed to assist in the         designed to assist in the
accurate preparation of tax returns (Appendix VIII              accurate preparation of tax
presents a list of these reports). During the course of                   returns.
this audit, we provided SPEC function management with
observations from our anonymous visits, including
specific examples of noncompliance with site MQSR. Based on our input, management
contacted representatives from the sites to discuss the issues we had presented and requested
corrective actions to be taken.
Site coordinators are volunteers who provide coordination, organization, and supervision for all
aspects of a Volunteer Program site, including overseeing the site’s operation during the filing
season and ensuring the site is using an intake and interview process as well as a quality review
process. Discussions with site coordinators and volunteers associated with the sites that
incorrectly prepared tax returns confirmed both site coordinators and volunteers were aware of
the requirement to have a quality review process. Explanations for not having a quality review
process included (1) there was no quality review checklist available at the site, (2) a quality
review was performed only when there were complex issues, and (3) the site coordinator was
planning to remind volunteers to conduct a review. In other instances, the site coordinators
could not provide explanations as to why there was no quality review process.
The SPEC function also conducts shopping visits as part of its quality review program. The
results of these visits confirmed the sites were not consistently complying with the MQSR.
Observations from the 39 SPEC function shopping visits showed:




12
   Required checklists include IRS documents (e.g., Quality Review Checklist (Form 8158 (EN/SP)), Important Tax
Records (Publication 730), and Volunteer Resource Guide (Publication 4012)) or a locally developed checklist that
contains the same information.
13
   IRS support includes software, computers, printers, financial assistance, grants, and VITA and Tax Counseling for
the Elderly logo references.
                                                                                                            Page 9
                Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                   Are Often Not Followed



   •   Twelve percent of the sites did not use the intake sheet during tax return preparation.
   •   Thirty-six percent of the sites did not conduct an interview with the shopper.
   •   Forty-four percent of the sites did not have the required quality review process.
In addition, we have previously reported that intake sheets do not contain all critical questions.
The SPEC function had developed Form 13614, which contains a standardized list of required
questions, to guide volunteers when interviewing taxpayers. Every Volunteer Program site is
required to use an intake sheet. Although a site is permitted to create its own intake sheet, this
sheet must include those questions the SPEC function designates as required and that are
included on Form 13614.
Fifteen (38 percent) of the 39 sites we visited used an intake sheet that did not contain all
required questions. In response to our last report, the IRS had developed a process requiring that
SPEC function employees obtain copies of intake sheets from the sites they oversee prior to the
start of the 2007 Filing Season, to ensure intake sheets contained all required questions. This
process was not effective for various reasons: the partner organization changed the intake sheet
after the SPEC function’s review, the partner organization did not make the recommended
changes based on SPEC function review, or function employees did not consistently follow
requirements to review intake sheets.
SPEC function management is reluctant to require that all sites use Form 13614. For example,
one partner organization will not use Forms 13614, based on a prohibition from its Office of
General Counsel. The partner organization cites the inclusion of Social Security Numbers on
Form 13614 as one of the reasons it opposes using the Form. The partner organization sees no
value in including Social Security Numbers on the intake sheet and believes inclusion needlessly
increases the risk of stolen identities. However, this does not address why all the required
questions are not included on the partner organization’s intake sheet.
Incorrectly prepared tax returns increase the risk of taxpayers receiving erroneous payments or
not receiving credits to which they are entitled. This may also create additional burden on
taxpayers if the IRS later finds potential errors on the tax returns and requires the taxpayers to
face the demands of IRS audits.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Require all Volunteer Program sites to use the IRS-developed
Form 13614, with the option of the site including additional locally developed information.
       Management’s Response: IRS management did not agree with the recommendation.
       For 2 years, the SPEC function has required the use of an intake and interview sheet in
       conjunction with the volunteer’s interview with the taxpayer. The SPEC function will

                                                                                            Page 10
                     Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                        Are Often Not Followed



           continue to require the use of an intake and interview process that includes an intake
           sheet, such as Form 13614 or partner organization-developed equivalent, to prompt the
           return preparer to ask questions necessary for accurate return preparation.
           Office of Audit Comment: We have repeatedly reported that sites are not including
           all required questions on their intake sheets. The SPEC function allows a site to create its
           own intake sheet, which must include those questions the SPEC function requires.
           However, required questions continue to not be included. In addition, in response to our
           last report, the IRS had developed a process to ensure intake sheets contained all required
           questions. This process failed to ensure partner organization compliance; we determined
           38 percent of the intake sheets reviewed did not include required questions.
Recommendation 2: Provide training to site coordinators, focusing on the specific
responsibilities for ensuring volunteer compliance with the MQSR.
           Management’s Response: IRS management agreed with this recommendation. For
           Fiscal Year 2008, the SPEC function will focus on developing a consistent plan and
           process for volunteer site coordinators’ training.
Recommendation 3: Strengthen the policy on actions to be taken when a site is not in
compliance with the MQSR, including specific actions that will be taken to ensure the site
remains compliant.
           Management’s Response: IRS management agreed with this recommendation. In
           Fiscal Year 2007, the SPEC function implemented a policy to address the consequences
           for noncompliant sites. For Fiscal Year 2008, the Quality Assurance Staff will review,
           revise, and strengthen this policy, as necessary.

Steps Are Taken to Protect Taxpayer Information at Volunteer
Program Sites
Steps are being taken to protect taxpayer information, including using passwords to protect
computers (prevents unauthorized access to the computers), using tax preparation software that
encrypts14 current year e-filed tax information, and notifying taxpayers whose information will be
retained longer than the current tax year. However, encryption software was not included on all
computers containing prior year e-filed tax information.
To promote e-filing, the IRS provides computers and tax preparation software to Volunteer
Program partner organizations. SPEC function management stated that all IRS-provided
computers are shipped to sites with encryption software loaded. In some cases, the partner
organizations provide the computers. The SPEC function provided approximately


14
     Encryption software protects the confidentiality of data stored on a computer.
                                                                                               Page 11
                    Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                       Are Often Not Followed



9,400 computers to volunteers for use in the 2007 Filing Season. As of April 21, 2007,
Volunteer Program sites had prepared 2,422,169 tax returns; 2,175,108 (90 percent) were e-filed.
The SPEC function stresses to its volunteers that the public trust must be protected and
confidentiality of the taxpayer information provided must be guaranteed. To this end, the IRS
developed the Privacy and Confidentiality-A Public Trust (Publication 4299), which establishes
guidelines for volunteers to follow to protect taxpayer information. The Volunteer Protection
Act of 199715 states that, if a volunteer willfully discloses information, fails to protect personal
information, or is otherwise flagrantly irresponsible with information entrusted to him or her,
criminal charges or punitive damages could be brought against the volunteer.
Thirty-eight (97 percent) of the 39 tax returns prepared for our auditors were created on a
computer with a tax software package that encrypts the current year e-filed tax information. The
remaining tax return was prepared on paper. For all but 1 of the
38 returns, a password was used to protect access to the                  Tax information is
computer. Most passwords were universal to the site and not             regarded   as a prime
computer specific.                                                        target for identity
                                                                               thieves.
However, not all sites that retain prior year e-filed tax
information had encryption software loaded on the computers to
protect this information. Two (33 percent) of the 6 sites we visited that retained prior year e-filed
tax information did not have encryption software loaded on the 2 computers to protect the prior
year e-filed tax information. These two computers had been provided by the partner
organizations.
Also, 1 (17 percent) of the 6 sites that retained prior year tax information did not provide
taxpayers with the required notification that this information was being retained because the site
retains the information in an electronic format and considers this storage as an acceptable
practice, so taxpayer information is not subjected to disclosure. Specifically, SPEC function
procedures require that partner organizations with a need to retain prior year e-filed tax
information provide written notice to customers outlining what information will be retained and
for how long, how the information will be used, and that the information will be protected.
Partner organizations are required to obtain customer approval of the notification.
If a computer without encryption software that contains prior year e-filed tax information is
stolen, the perpetrator may be able to inappropriately access this information. Information on tax
forms (including names; Social Security Numbers; and income, employment, and bank account
details) is regarded as a prime target for identity thieves. SPEC function management indicated
that, for the 2008 Filing Season, changes are being made to the tax preparation software package
that will include encrypting prior year e-filed tax information.


15
     Pub. L. No. 105-19.

                                                                                             Page 12
               Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                  Are Often Not Followed



Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should ensure
taxpayers receive required notification if prior year tax information is maintained, even if the
information is in an electronic format, and ensure encryption software is loaded on all computers
(including partner organization-provided computers) on which prior year e-filed tax information
is retained.
       Management’s Response: IRS management disagreed with this recommendation.
       They believe the requirements for taxpayer notification are sufficiently addressed in
       Publication 4299. The SPEC function will continue to stress that partner organizations
       obtain permission from the taxpayer for any data retained beyond December 31 of each
       year. In addition, the electronic tax preparation software provided in Fiscal Year 2008
       will encrypt all current and prior year e-filed data.
       Office of Audit Comment: While management stated they disagreed with the
       recommendation, their planned actions together with Publication 4299 address the intent
       of the recommendation. We did not take exception to the adequacy of Publication 4299.
       We reported concerns that the Publication is not always being provided to taxpayers.
       However, management responded they would continue to stress that partner
       organizations obtain permission from taxpayers for any data retained beyond
       December 31 of each year.




                                                                                         Page 13
                  Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                     Are Often Not Followed



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including the accurate preparation of their income tax returns, when visiting Volunteer Program1
sites. We also determined whether Volunteer Program sites were in compliance with privacy
and security guidelines relating to the protection of taxpayer information. This review was
limited to community-based VITA sites and Tax Counseling for the Elderly sites sponsored by
the AARP. To accomplish the objectives, we:
I.      Determined whether Volunteer Program sites were accurately preparing individual
        income tax returns based on facts provided by taxpayers.
        A. Selected a judgmental sample of 39 VITA/Colocated VITA2 and AARP sites
           nationwide and attempted to have a tax return prepared. We selected sites in
           13 cities, with a total of 3 VITA/Colocated VITA and AARP sites being selected in
           each city. Site selection was based on the volume of tax returns prepared by the sites,
           auditor resources, and the sites’ proximity to major cities. The population of
           Volunteer Program sites is not fixed because sites open and close throughout the
           filing season.3 Therefore, we could not determine the total population of Volunteer
           Program sites and could not do a statistical sample. See Appendix V for a list of
           cities and States selected. At each site, an auditor:
             1. Asked to have his or her individual income tax return prepared using the
                information from the scenarios we had prepared, to address questions included on
                intake sheets or asked by the volunteer preparing the tax return.
             2. Documented specific information as it relates to the preparation of the tax return.
        B. Determined whether the tax return prepared by the volunteer was correct, including
           whether the volunteer properly evaluated eligibility for deductions, exemptions, and
           credits claimed or denied.
        C. If tax returns were prepared incorrectly, determined why and calculated the potential
           impact on taxpayers and tax revenue.




1
  The IRS Volunteer Program includes the VITA and Tax Counseling for the Elderly Programs.
2
  Some community-based VITA sites are located in buildings occupied by one or more IRS offices.
3
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 14
              Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                 Are Often Not Followed



II.   Determined whether the Volunteer Program sites were in compliance with privacy and
      security guidelines relating to the protection of taxpayer information.
      A. Discussed with IRS management Volunteer Program guidelines relative to privacy
         and security of taxpayer information.
      B. At the completion of the tax return but subsequent to the auditor identifying himself
         or herself, determined whether the volunteer’s computer was password-protected and
         encryption software was loaded on the computer. In addition, we determined whether
         taxpayer information was retained by sites visited.
      C. If sites were not in compliance with privacy and security guidelines, determined why
         and calculated the potential impact on taxpayers who visited the sites to have their tax
         returns prepared.




                                                                                         Page 15
              Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                 Are Often Not Followed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Roberta Fuller, Lead Auditor
Pamela DeSimone, Senior Auditor
Tracy Harper, Senior Auditor
Robert Howes, Senior Auditor
Jerry Douglas, Auditor
Mary Keyes, Auditor




                                                                                   Page 16
              Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                 Are Often Not Followed



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 17
                    Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                       Are Often Not Followed



                                                                                               Appendix IV

          General Characteristics of Tax Year 2005 Tax
           Returns Prepared by the Volunteer Program                                                    1




                                                                              Tax Counseling for the
                                                         VITA                    Elderly (AARP)
                                                Tax                            Tax
                                               Return        Percentage       Return       Percentage
                 Type of Tax Return            Volume         of Total        Volume        of Total
         U.S. Individual Income Tax
         Return (Form 1040)                    538,521          79.59%       1,001,425          94.60%
         Income Tax Return for Single
         and Joint Filers With No
         Dependents (Form 1040EZ)              57,749           8.53%          14,289           1.35%
         U.S. Individual Income Tax
         Return (Form 1040A)                   72,751           10.75%         42,298           4.00%
         U.S. Nonresident Alien Income
         Tax Return (Form 1040NR)                357            0.05%            37             0.00%
         U.S. Income Tax Return for
         Certain Nonresident Aliens With
         No Dependents
         (Form 1040NR-EZ)                       6,888           1.02%            477            0.05%
         U.S. Individual Income Tax
         Return (PC) (Form 1040PC)               378            0.06%            52             0.00%
         U.S. Self-Employment Tax
         Return – Puerto Rico
         (Form 1040-PR)                           6             0.00%             2             0.00%

                                                                                Not               Not
         Other                                    1             0.00%        Applicable        Applicable




1
    The IRS Volunteer Program includes the VITA and Tax Counseling for the Elderly Programs.
                                                                                                            Page 18
                Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                   Are Often Not Followed




                                                                       Tax Counseling for the Elderly
                                      VITA                                       (AARP)
                                       Tax                                               Tax
  Refund Due/          Dollar         Return      Percentage          Dollar            Return      Percentage
  Balance Due          Totals         Volume       of Total           Totals            Volume       of Total
 Refund Due        $824,980,184       581,527       85.94%         $753,451,912         752,421       71.08%
 Balance Due        $52,674,507       71,456        10.56%         $193,454,617         217,682       20.56%
 Breakeven                      $0    23,668         3.50%                        $0    88,477        8.36%



                                                                          Tax Counseling for the Elderly
                                                  VITA                              (AARP)
  Filing Status/Dependent            Tax Return      Percentage of          Tax Return            Percentage of
           Claims                     Volume             Total               Volume                   Total*
 Single                               388,707            57.45%                  627,881             59.31%
 Head of Household                    150,707            22.27%                  79,697              7.53%
 Married Filing Jointly               123,489            18.25%                  336,565             31.79%
 Widow(er) With Dependent
 Child                                  360               0.05%                   451                0.04%
 Married Filing Separately             13,388             1.98%                  13,986              1.32%

 Tax Return Prepared With
 One or More Dependent
 Exemptions, Including
 Parents                              222,785            32.92%                  142,061             13.42%
 Tax Return Prepared With
 No Dependent Exemptions              453,866            67.08%                  916,519             86.58%

* = Percentages for Filing Status do not total to 100 percent due to rounding.




                                                                                                          Page 19
                Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                   Are Often Not Followed



                                                                       Tax Counseling for the Elderly
                                                  VITA                           (AARP)
                                    Tax Return            Dollar        Tax Return          Dollar
       Credits Claimed               Volume               Totals         Volume             Totals
 Earned Income Tax*                   242,090         $341,777,976        158,677         $165,663,303
 Additional Child Tax*                 89,007            $78,589,134      42,036           $38,576,263
 Child Tax*                            82,850            $71,342,687      54,652           $56,533,557
 Retirement Savings
 Contribution*                         39,220             $6,105,289      43,114            $7,923,802
 Education                             32,025            $19,520,826      21,955           $13,584,644
 Child and Dependent Care*             18,039             $8,426,862       9,437            $4,151,649
 Other (Adoption, Gas, and
 Health Coverage Tax)                    198               $288,503         462              $586,397

* = This credit was included in our test scenarios.
                                                                       Tax Counseling for the Elderly
                                                  VITA                           (AARP)
                                    Tax Return            Dollar        Tax Return          Dollar
            Income                   Volume               Totals         Volume             Totals
                                        Not
 Average Income                      Applicable             $17,872    Not Applicable         $23,469
 Other Income                          44,359            $85,876,228      70,455          $156,500,615

Source: IRS management information system containing all Tax Year 2005 tax return data.




                                                                                                 Page 20
               Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                  Are Often Not Followed



                                                                 Appendix V

                     List of Cities and States Visited
                      to Have Tax Returns Prepared

•   Boston, Massachusetts
•   Chicago, Illinois
•   Cincinnati, Ohio
•   Miami, Florida
•   Minneapolis, Minnesota
•   New York, New York
•   Philadelphia, Pennsylvania
•   Phoenix, Arizona
•   San Antonio, Texas
•   San Francisco, California
•   Seattle, Washington
•   Tulsa, Oklahoma
•   Wilmington, North Carolina




                                                                       Page 21
                     Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                        Are Often Not Followed



                                                                                               Appendix VI

            Results of Tax Returns Incorrectly Prepared
                    at Volunteer Program Sites                          1




                                                  Volunteer      Correct
                                                    Site         Refund
                                                  Refund or        or          Amount of         Amount of
                                      Type of      Balance       Balance      Understated        Overstated
       Volunteer Sites Visited         Site         Due           Due           Refund            Refund
    Boston, Massachusetts              VITA            $5,640         $31                            $5,609
    Chicago, Illinois                  VITA            $5,640         $31                            $5,609
    Chicago, Illinois                  AARP            $2,233      $2,327                -$94
    Cincinnati, Ohio                   VITA            $2,005      $2,327              -$322
    Miami, Florida                     VITA            $1,926      $2,327              -$401
    Miami, Florida                     AARP            $1,104         $31                            $1,073
    Minneapolis, Minnesota             VITA            $2,017      $2,327              -$310
    Minneapolis, Minnesota             VITA            $2,005      $2,327              -$322
    Minneapolis, Minnesota             AARP            $2,233      $2,327                -$94
    New York, New York                 VITA            $1,054          $31                            $1,023
    New York, New York                 VITA            $2,342      $2,327                               $15
    Philadelphia, Pennsylvania         VITA             -$412         $31              -$443
    Philadelphia, Pennsylvania         AARP            $1,104         $31                            $1,073
    San Antonio, Texas                 VITA            $2,020      $2,327              -$307
    San Antonio, Texas                 VITA            $2,233      $2,327                -$94
    San Antonio, Texas                 AARP            $1,911      $2,327              -$416
    San Francisco, California          VITA            $1,104         $31                            $1,073
 Totals:                                                                             -$2,803        $15,475
Source: Anonymous visits performed by our auditors.




1
    The IRS Volunteer Program includes the VITA and Tax Counseling for the Elderly Programs.
                                                                                                     Page 22
                 Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                    Are Often Not Followed



                                                                                           Appendix VII

                Accuracy of Eligibility Determinations




         Source: Tax returns prepared for our auditors by Volunteer Program volunteers during the
         2007 Filing Season.1



1
  The IRS Volunteer Program includes the VITA and Tax Counseling for the Elderly Programs. The filing season is
the period from January through mid-April when most individual income tax returns are filed.
                                                                                                      Page 23
              Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                                 Are Often Not Followed



                                                                           Appendix VIII


  Treasury Inspector General for Tax Administration
     Audit Reports on the Volunteer Income Tax
                Assistance Program

Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154, dated
August 2004).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 2005).
Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
Assistance Program (Reference Number 2006-40-125, dated August 31, 2006).




                                                                                        Page 24
   Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                      Are Often Not Followed



                                                    Appendix IX

Management’s Response to the Draft Report




                                                           Page 25
Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                   Are Often Not Followed




                                                        Page 26
Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                   Are Often Not Followed




                                                        Page 27
Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                   Are Often Not Followed




                                                        Page 28
Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                   Are Often Not Followed




                                                        Page 29
Accuracy of Volunteer Tax Returns Is Improving, but Procedures
                   Are Often Not Followed




                                                        Page 30
